Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




HHS ADOPTED, ADMINISTERED,
 AND GENERALLY FOLLOWED
  CLASSIFIED INFORMATION
         POLICIES




                    Daniel R. Levinson
                     Inspector General

                       May 2013
                     OEI-07-12-00400
EXECUTIVE SUMMARY: HHS ADOPTED, ADMINISTERED, AND
GENERALLY FOLLOWED CLASSIFIED INFORMATION POLICIES
OEI-07-12-00400


WHY WE DID THIS STUDY

The Reducing Over-Classification Act of 2010 mandates that the Inspector General of
each agency of the United States with an officer or employee who is authorized to make
original classification decisions conduct two evaluations. One evaluation is intended to
(1) assess whether applicable classification policies have been adopted, effectively
administered, and followed; and (2) identify practices that may contribute to
misclassification of material. This evaluation must be completed by September 30, 2013.
A second evaluation must be completed by September 30, 2016, and must review
progress made pursuant to the results of the first. This report pertains to the first required
evaluation and assesses whether the Department of Health and Human Services (HHS)
has adopted, effectively administered, and followed polices regarding classified national
security information (NSI). The second objective is addressed in the report entitled
Originally and Derivatively Classified Documents Met Most Federal Requirements
(OEI-07-12-00401).

HOW WE DID THIS STUDY

We identified and reviewed all of HHS’s classified NSI guidance documents to determine
their scope and content. We compared HHS’s National Security Information Handbook
(Handbook) to an Executive Order and its implementing Directive to determine whether
it was consistent with Federal requirements. We interviewed officials responsible for
ensuring that HHS’s classified NSI policies are effectively administered and followed.
Finally, we surveyed Classification Security Officers responsible for providing guidance
and oversight to their operating or staff divisions.

WHAT WE FOUND

HHS has adopted policies for classified NSI that are consistent with Federal
requirements. HHS used annual status reports and self-inspections to ensure that its
classified NSI policies are effectively administered. Finally, HHS provided guidance and
training to individuals who access classified NSI to ensure that classified NSI policies are
followed; however, not all Classification Security Officers received guidance or training.

WHAT WE RECOMMEND

We recommend that the Office of Security and Strategic Information (OSSI), working on
behalf of the Office of the Secretary, clarify who is responsible for ensuring that
Classification Security Officers receive training and ensure that all Classification Security
Officers receive guidance and training regarding classified NSI. OSSI concurred with
both recommendations and described actions taken to address them.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................6 

           HHS has adopted policies for classified NSI that are consistent
           with Federal requirements................................................................6 

           HHS used annual status reports and self-inspections to ensure 

           that its classified NSI policies are effectively administered ............7 

           HHS provided guidance and training to individuals who access 

           classified NSI to ensure that its classified NSI policies are 

           followed; however, not all Classification Security Officers 

           received guidance and/or training....................................................8 

Conclusion and Recommendation .............................................................11

           Agency Comments and Office of Inspector General Response.....12 

Appendix....................................................................................................13 

           A: Definition of Each Classification Level ...................................13 

           B: Agency Comments ...................................................................14 

Acknowledgments......................................................................................16

                   OBJECTIVE
                   To assess the extent to which the Department of Health and Human Services
                   (HHS) has adopted, effectively administered, and followed applicable policies,
                   procedures, rules, and regulations regarding classified national security
                   information (NSI).

                   BACKGROUND
                   Classified NSI is information that requires protection against unauthorized
                   disclosure and is marked to indicate its classified status.1 The Reducing
                   Over-Classification Act of 2010 (the Act) mandates that the Inspector General of
                   each agency of the United States with an officer or employee who is authorized to
                   make original classification decisions conduct two evaluations. One evaluation is
                   intended to (1) assess whether applicable classification policies, procedures, rules,
                   and regulations (policies) have been adopted, effectively administered, and
                   followed; and (2) identify policies, procedures, rules, and regulations, or
                   management practices (practices) that may contribute to misclassification of
                   material.2 This evaluation must be completed by September 30, 2013. A second
                   evaluation must be completed by September 30, 2016, and must review progress
                   made pursuant to the results of the first evaluation. This report assesses whether
                   policies have been adopted, effectively administered, and followed. A companion
                   report, entitled Originally and Derivatively Classified Documents Met Most
                   Federal Requirements (OEI-07-12-00401), identifies practices that may
                   contribute to misclassification of information. Both reports are being published
                   concurrently.
                   In addition, the Information Security Oversight Office (ISOO) of the National
                   Archives and Records Administration requested that Inspectors General review
                   their agencies’ classified documents to determine whether the information within
                   them was classified in accordance with Federal requirements.3 For information
                   regarding ISOO’s request, see Originally and Derivatively Classified Documents
                   Met Most Federal Requirements (OEI-07-12-00401).
                   Federal Requirements
                   Executive Order No. 13526, its implementing Directive,4 and the Act have all
                   directed Federal agencies to reduce unnecessary information classification or
                   information classification at a higher and more restrictive level than necessary.

                   1
                     Executive Order No. 13526, published at 75 Fed. Reg. 707 (Jan. 5, 2010). 

                   2
                     P.L. 111-258, § 6. 

                   3
                     ISOO is responsible to the President for policy and oversight of the Governmentwide security classification

                   system and the National Industrial Security Program. ISOO receives policy and program guidance from the 

                   National Security Council. 

                   4
                     32 CFR pt. 2001. 


HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                       1
                   These initiatives are intended to promote information sharing across agencies;
                   with State, local, and tribal governments; and with the public.5
                   Executive Order No. 13526. In 2009, the President issued Executive Order
                   No. 13526, entitled Classified National Security Information.6 This Executive
                   Order sets forth a uniform system for classifying, safeguarding, and declassifying
                   NSI and outlines the method of implementation.
                   Implementing Directive: Classified National Security Information. Pursuant to
                   Executive Order No. 13526, ISOO issued a Directive7, 8 to provide guidance to
                   agencies regarding the classification system set forth in the order, including
                   guidance on:
                        	 original classification,9
                        	 derivative classification,10
                        	 declassification and downgrading,11
                        	 the safeguarding of classified NSI,
                        	 standards for establishing and maintaining an ongoing agency 

                           self-inspection program, and 

                        	 standards for agency security education and training programs.12
                   Agency Self-Inspections. Each agency must establish and maintain ongoing
                   self-inspection programs that include reviews of representative samples of the
                   agency’s original and derivative classification actions.13, 14 The self-inspections
                   should determine whether the agency has adhered to the requirements for original
                   classification, derivative classification, declassification, safeguarding, security
                   violations, security education and training, and management and oversight of the

                   5
                     S. Rept. No. 111-200, at 1-2 (2010). 

                   6
                     Executive Order No. 13526, published at 75 Fed. Reg. 707 (Jan. 5, 2010). 

                   7
                     The Executive Order requires ISOO to issue directives as necessary to implement the uniform system for 

                   classifying, safeguarding, and declassifying NSI. 

                   8
                     32 CFR pt. 2001, published at 75 Fed. Reg. 37254 (June 28, 2010). 

                   9
                     “Original classification” is defined as an initial determination, in the interest of national security, that 

                   information requires protection from unauthorized disclosure. Executive Order No. 13526 § 6.1(ff). 

                   10
                      “Derivative classification” is defined as incorporating, paraphrasing, restating, or generating information 

                   that is already classified and marking the material consistent with the classifications that apply to the original

                   information. Individuals who apply derivative classification markings need not have original classification 

                   authority, but must indicate their identity in a manner that is immediately apparent for each derivative 

                   classification action. Executive Order No. 13526 § 6.1(o). 

                   11
                      When information no longer meets the standards for classification, it must be declassified or downgraded 

                   by the official who authorized the original classification, the original classifier’s current successor, a 

                   supervisory official, or an official delegated declassification authority. Executive Order No. 13526 § 3.1. 

                   12
                      75 Fed. Reg. 37254–37275 (June 28, 2010). 

                   13
                      The ongoing agency self-inspections are separate from the mandated evaluations required to be conducted

                   by Inspectors General. 

                   14
                      32 CFR § 2001.60; Executive Order No. 13526 § 5.4.

HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                           2
                   Executive Order and the Directive.15 Each year, the agency must report the
                   findings of its self-inspection program to the Director of ISOO.16
                   Agency Security Education and Training. Each agency must establish security
                   education and training programs that ensure that all employees who create,
                   process, or handle classified information understand the classification,
                   safeguarding, and declassification policies and procedures.17 These employees
                   include Classification Security Officers and other individuals who have access to
                   classified NSI and the appropriate security clearance. Although these employees
                   need not have original classification authority, they may derivatively classify
                   information.18 Guidance and training provided to these employees is intended to
                   reduce instances of overclassification and ensure that practices regarding
                   classification, safeguarding, and declassification are followed.
                   HHS’s Classified NSI Program
                   On January 9, 2012, the Office of Security and Strategic Information (OSSI)
                   released HHS’s Classified National Security Information Policy. The purpose of
                   the policy is to ensure that all HHS agencies are aware of and compliant with
                   Federal requirements related to the sharing, handling, and safeguarding of
                   classified NSI.19 This policy clarifies the responsibilities of HHS and division
                   officials tasked with implementing HHS’s NSI program as set forth in Executive
                   Order No. 13526 and Federal regulations. Specifically, this policy indicates that
                   the Secretary of HHS (Secretary) serves as the original classification authority
                   (OCA)20 for HHS and may classify documents up to the “Secret” classification
                   level.21, 22 This policy also charges the OSSI director with developing
                   departmentwide policy and managing and overseeing the classified NSI
                   program.23 In addition, the policy requires that each HHS operating division and
                   staff division designate a Classification Security Officer. The Classification
                   Security Officer is responsible for providing his or her division with guidance and
                   oversight on the handling and safeguarding of classified NSI. The Classification
                   Security Officer is also responsible for conducting an initial review of his or her
                   division’s classified documents and coordinating this review with OSSI.24

                   15
                      32 CFR § 2001.60(c). 

                   16
                      32 CFR § 2001.60(f). 

                   17
                      32 CFR Part 2001, Subpart G; Executive Order No. 13526 § 4.1(a). 

                   18
                      Executive Order No. 13526 § 6.1(o). 

                   19
                      Ibid., p. 3. 

                   20
                      An OCA is an individual authorized in writing, by the President, the Vice President, agency heads (such as 

                   the Secretary), or other officials designated by the President, to classify information in the first instance. 

                   Executive Order No. 13526 § 6.1(gg). 

                   21
                      OSSI, Classified National Security Information Policy, January 9, 2012. 

                   22
                      Information may be classified at one of three levels: (1) “Top Secret,” (2) “Secret,” or (3) “Confidential.”

                   See Appendix A for a description of each classification level. 

                   23
                      OSSI, Classified National Security Information Policy, January 9, 2012. 

                   24
                      Ibid., § 6.4. 


HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                        3
                   HHS has implemented the requirements of Executive Order No. 13526 and its
                   Directive in greater detail in its National Security Handbook (Handbook), which
                   was released on February 17, 2012. It provides procedural guidance to HHS
                   employees and contractors who have access to classified NSI and describes
                   responsibilities for the handling and safeguarding of NSI. The Handbook
                   indicates that the Secretary has delegated to the Deputy Secretary, the Director of
                   OSSI, and the Associate Director of OSSI the authority to originally classify and
                   declassify information.
                   Related Reports
                   In 2011, the Environmental Protection Agency (EPA) Office of Inspector General
                   (OIG) was the first to issue its mandated evaluation.25 Although other OIGs are
                   reportedly undertaking evaluations, they had not issued reports as of May 2013.

                   METHODOLOGY
                   We identified and reviewed all of HHS’s classified NSI guidance documents to
                   determine their scope and content, including HHS’s policy and Handbook.26 We
                   compared the Handbook to Executive Order No. 13526 and the Directive to
                   determine whether it was consistent with Federal requirements. We conducted
                   structured interviews with OSSI officials responsible for ensuring that HHS’s
                   classified NSI policies are effectively administered and followed. We also
                   surveyed Classification Security Officers responsible for providing guidance and
                   oversight regarding classified NSI to their divisions.
                   We verified that OCAs and Classification Security Officers who have access to
                   classified NSI and who derivatively classified information received the required
                   guidance and training. However, we did not determine whether other individuals
                   who have access to classified NSI and derivatively classify information received
                   guidance and training.27 We determined which methods (e.g., self-inspections,
                   training) HHS uses to ensure that its classified NSI policies are effectively
                   administered and followed. We did not assess the implementation of those
                   methods.
                   Data Collection and Analysis
                   Identification of NSI Policies. We asked OSSI to provide all of HHS’s classified
                   NSI guidance, including the current policy and Handbook. Once we identified all
                   of HHS’s classified NSI guidance, we reviewed each document to determine its
                   scope and content. Specifically, we reviewed the Handbook to ensure that

                   25
                      EPA OIG, EPA Should Prepare and Distribute Security Classification Guides, Report No. 11-P-0722,
                   September 2011.
                   26
                      In this report we collectively refer to HHS’s policy and Handbook as policies.

                   27
                      We chose to limit our review to those individuals responsible for providing the Department and divisions 

                   with guidance and oversight on the handling and safeguarding of classified NSI. These individuals included 

                   the OCAs and the Classification Security Officers. 


HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                      4
                   guidance regarding the following information was included: (1) original
                   classification, (2) derivative classification, (3) declassification and downgrading,
                   (4) safeguarding of classified NSI, (5) standards for establishing and maintaining
                   an ongoing agency self-inspection program, and (6) standards for agency security
                   education and training programs.
                   Interviews With OSSI Officials. We conducted structured interviews with the
                   Director and Associate Director of OSSI to gather information about how OSSI
                   ensures that HHS’s adopted policies are effectively administered. Specifically, we
                   asked about (1) administration of HHS’s self-inspection program and
                   (2) procedures for reviewing the Department’s classification actions. Lastly, we
                   asked about OSSI’s processes and procedures for annually reporting the findings
                   regarding the Department’s self-inspection program to ISOO.
                   We also gathered information from these officials regarding how OSSI ensures
                   that the Department’s adopted policies are followed. Specifically, we asked
                   questions regarding the (1) dissemination of classified NSI guidance to employees
                   who create, process, or handle classified information; (2) identification of staff
                   who are required to complete training; (3) training content; and (4) frequency with
                   which the training is provided. After conducting the interviews, we analyzed the
                   responses of each official. We compared the responses to identify patterns across
                   the various interviews.
                   Interviews With Classification Security Officers. We requested from OSSI the
                   names and contact information of all of the designated Classification Security
                   Officers at the time of our review. OSSI provided a roster of 16 primary
                   Classification Security Officers for each division required to have such an officer.
                   We asked each to confirm his or her status as a Classification Security Officer and
                   to complete a survey regarding guidance and training that the Classification
                   Security Officer may have received and/or provided regarding classified
                   information. We received and analyzed responses from all 16 Classification
                   Security Officers and compared the responses to identify patterns across the
                   various surveys.
                   Standards
                   This study was conducted in accordance with the Quality Standards for Inspection
                   and Evaluation issued by the Council of the Inspectors General on Integrity and
                   Efficiency.




HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   5
                   FINDINGS
                   HHS has adopted policies for classified NSI that are
                   consistent with Federal requirements
                   HHS has adopted policies regarding classified NSI and developed additional
                   guidance related to specific division programs and interagency information
                   sharing. HHS’s policies regarding classified NSI follow Federal requirements
                   outlined in Executive Order No. 13526 and its Directive. Certain HHS divisions
                   have developed guidance that further defines policies regarding classified NSI for
                   specific programs. HHS has also developed a draft policy on interagency
                   information sharing across Federal agencies within the national security
                   community.
                   Adopted policies follow Federal requirements
                   HHS has adopted a policy entitled Classified National Security Information
                   Policy which references Federal requirements on classified NSI and outlines the
                   purpose, applicability, and scope of the policy. It also defines the responsibilities
                   of individuals charged with handling and safeguarding classified NSI. HHS has
                   also issued the Handbook, which provides specific instructions for implementing
                   Executive Order No. 13526 and its Directive. The Handbook contains guidance
                   on the following topics, which were included in the Executive Order: (1) original
                   classification, (2) derivative classification, (3) declassification and downgrading,
                   (4) safeguarding of classified NSI, (5) standards for establishing and maintaining
                   an ongoing agency self-inspection program, and (6) standards for agency security
                   education and training programs. HHS’s Handbook provides information that
                   would assist an individual in completing each of these actions in accordance with
                   Federal requirements.
                   Additional guidance has been developed for specific programs and
                   interagency information sharing
                   According to HHS’s policy, divisions should establish additional written
                   procedures, when necessary, to implement the Department’s classified NSI policy.
                   As a result, certain divisions have established division-specific policies regarding
                   classified NSI. For example, OSSI and the Food and Drug Administration (FDA)
                   have developed a classification guide for FDA’s Center for Food Safety and
                   Applied Nutrition.28 This guide outlines standard operating procedures regarding
                   classified NSI. The Centers for Disease Control and Prevention (CDC) has also
                   developed guidance regarding classified NSI. For example, CDC issued guidance



                   28
                     FDA, Center for Food Safety and Applied Nutrition Standard Operating Procedures: National Security
                   Classification of Vulnerability Assessments, April 2007.

HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                 6
                   to its staff specifically addressing classification and marking of classified NSI.29
                   HHS has also developed a policy for interagency information sharing entitled
                   HHS Policy for Engagement With the National Security Community via the
                   Information Sharing Environment. This policy designates OSSI, “which reports
                   directly to the Deputy Secretary on intelligence and counterintelligence issues, as
                   the Department’s lead on sharing and safeguarding national security information.”
                   The policy establishes the responsibilities of HHS employees, contractors, and
                   divisions related to sharing and safeguarding homeland security information,
                   terrorism-related information, law enforcement information related to terrorism,
                   or intelligence-related information.30

                   HHS used annual status reports and self-inspections to
                   ensure that its classified NSI policies are effectively
                   administered
                   HHS has adopted methods to ensure that its classified NSI policies are effectively
                   administered through various methods. For example, Classification Security
                   Officers are required to complete annual status reports that document how their
                   divisions handle and safeguard classified NSI.31 OSSI officials also conduct
                   periodic self-inspections to determine whether derivatively classified documents
                   were classified in accordance with Federal requirements. Finally, the findings
                   from the Classification Security Officers’ annual status reports and OSSI’s
                   self-inspections are used to complete required reporting forms and develop HHS’s
                   annual self-inspection report, which is provided to the Director of ISOO.
                   Classification Security Officers completed required annual status
                   reports
                   To ensure that HHS’s policies related to classified NSI are effectively
                   administered, OSSI officials reported that each Classification Security Officer
                   completed the required Annual Status Report on Classified Information (annual
                   status report).32 The report is a self-assessment tool that Classification Security
                   Officers complete to report how classified documents are being handled and
                   safeguarded throughout HHS. The annual status report requires Classification
                   Security Officers to provide specific information about their divisions’

                   29
                     CDC, National Security Information Classification & Control Markings, 2012; CDC, Document Marking
                   Briefing, 2012.
                   30
                      OSSI, Policy for Engagement With the National Security Community via the Information Sharing
                   Environment (ISE), November 29, 2012.
                   31
                      Classification Security Officers are required to conduct security inspections of all offices in their divisions
                   that store or handle classified information to ensure that individuals responsible for classified information
                   comply with classified NSI policies. Further, these officers are required to audit their divisions’ classified
                   documents. The results of the security inspections and the audits are reported on the HHS “Annual Status
                   Report on Classified Information” forms, also referred to as “annual status reports.”
                   32
                      Classification Security Officers serving in divisions that did not develop and/or maintain classified NSI did
                   not complete the annual status report.

HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                          7
                   classification management programs. This information includes the location,
                   number, and classification level of the classified documents; and the number of
                   derivative classification decisions. OSSI officials reported that they use these
                   annual status reports to determine which divisions may need additional training.
                   OSSI conducted annual self-inspections
                   OSSI officials also reported that they conducted annual self-inspections to ensure
                   that HHS’s classified NSI policies were effectively administered. The
                   self-inspections included reviewing a sample of derivatively classified documents
                   and conducting informal site visits to determine whether documents are classified
                   in accordance with Executive Order No. 13526. One OCA stated that, during a
                   self-inspection, she would “review the [derivative] classification decision with the
                   individual making the classification and talk about any issues.” OSSI officials
                   reported that they conducted periodic informal site visits to the divisions to ensure
                   that classified documents were being handled and safeguarded in accordance with
                   HHS policy and Federal requirements.
                   Findings from the Classification Security Officers’ annual status
                   reports and the self-inspections were reported to ISOO
                   HHS’s self-inspection report included descriptions of the Department’s
                   self-inspection program and findings, which included information from the
                   Classification Security Officers’ annual status reports. HHS’s self-inspection
                   report addressed all topics required by Executive Order No. 13526 (original
                   classification, derivative classification, declassification, safeguarding, security
                   violations, security education and training, and management and oversight).
                   OSSI officials reported that they are required to complete both the “Agency
                   Security Classification Management Program Data” form, also referred to as
                   “Standard Form 311,” and the self-inspection report annually and submit them to
                   the Director of ISOO by November. The Associate Director of OSSI provided
                   copies of both Standard Form 311 and the self-inspection report for 2011; both of
                   these documents were submitted to ISOO by the November 2011 deadline.

                   HHS provided guidance and training to individuals who
                   access classified NSI to ensure that its classified NSI
                   policies are followed; however, not all Classification
                   Security Officers received guidance and/or training
                   HHS adopted various methods to ensure that its policies regarding classified NSI
                   are followed. For example, guidance and training regarding HHS’s classified NSI
                   policy and Handbook are disseminated to individuals who develop and access
                   classified information. These individuals include the four OCAs (the Secretary,
                   Deputy Secretary, Director of OSSI, and Associate Director of OSSI),
                   Classification Security Officers, and individuals who possess security clearances.


HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   8
                   Guidance regarding HHS’s policy and Handbook was reportedly
                   disseminated to administrative leads, Classification Security
                   Officers, and other individuals who access classified NSI; however,
                   not all Classification Security Officers received guidance
                   To ensure that HHS’s policies related to classified NSI are followed, OSSI
                   officials reported that they disseminated guidance to lead administrators, OCAs,
                   Classification Security Officers, and other individuals who access classified NSI.
                   OSSI officials reported that HHS’s Classified National Security Information
                   Policy was disseminated directly to the lead administrators of the divisions. OSSI
                   officials reported that the Handbook was also disseminated directly to the
                   Classification Security Officers, who are responsible for ensuring that their
                   divisions adhere to policies for handling classified NSI. OSSI officials further
                   reported that the classified NSI policy and Handbook were disseminated to the
                   four OCAs.33 Policies related to classified NSI and the Handbook are updated
                   each time a relevant Executive Order is issued.
                   Of the 16 Classification Security Officers surveyed, 13 indicated that they had
                   received guidance regarding HHS’s policies for handling and classifying
                   information since becoming Classification Security Officers. Four specifically
                   reported receiving HHS’s Handbook. Of the nine Classification Security Officers
                   who did not report receiving the Handbook, eight reported receiving HHS’s
                   policy or general guidance from OSSI concerning classified information; one
                   reported receiving information but could not recall the content. Of the three
                   Classification Security Officers who indicated that they did not receive guidance,
                   two reported that their divisions did not develop or maintain classified
                   information. The third reported that he had not received guidance since joining
                   HHS in 2010. However, he reported receiving training related to classified NSI
                   from his former Federal employer.
                   Training was reportedly provided to OCAs, Classification Security
                   Officers, and other individuals who accessed classified NSI;
                   however, not all Classification Security Officers received training
                   OSSI officials reported that HHS has established required training for individuals
                   who develop and access classified NSI (OCAs, Classification Security Officers,
                   and individuals with security clearances). The four OCAs are required to
                   complete annual training on making original classification decisions. The OCAs
                   are also required to complete annual refresher training. OSSI officials reported
                   that all four OCAs had completed their annual training for 2012.
                   OSSI officials indicated that Classification Security Officers are also required to
                   receive training. Of the 16 Classification Security Officers surveyed, 14 indicated
                   that they had received some type of training since becoming Classification

                   33
                        OSSI officials confirmed that all four OCAs received HHS’s policy and Handbook.

HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)       9
                   Security Officers for their divisions. These 14 Classification Security Officers
                   reported receiving training on a number of topics, including handling and
                   safeguarding classified information, transmitting classified information, original
                   classification, derivative classification, downgrading and declassification,
                   marking of classified materials, and storage of classified information. The two
                   who did not receive training reported that their divisions do not develop or
                   maintain classified information.
                   In addition to OCAs and Classification Security Officers, other individuals with
                   access to classified NSI are required to receive training. OSSI officials reported
                   that these individuals received training on topics such as handling, safeguarding,
                   identifying, and marking classified NSI.




HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   10
                   CONCLUSION AND RECOMMENDATION
                   As mandated by the Reducing Over-Classification Act, we assessed whether HHS
                   has adopted, followed, and effectively administered policies regarding classified
                   NSI. HHS’s policies for classified NSI are consistent with Federal requirements
                   outlined in Executive Order No. 13526 and its implementing Directive. Some
                   HHS divisions have established additional procedures to implement the
                   Department’s classified NSI policy, such as FDA’s classification guide for the
                   Center for Food Safety and Applied Nutrition, CDC’s guidance on classification
                   and marking of classified NSI, and a draft policy on interagency information
                   sharing across Federal agencies. Additionally, to ensure that its classified NSI
                   policies are effectively administered, HHS requires annual status reports and
                   self-inspections. HHS uses the findings from the annual status reports and
                   self-inspections to provide ISOO with information regarding HHS’s classified
                   NSI program. Finally, HHS provides guidance and training to individuals who
                   access classified NSI to ensure that its policies are followed. However, not all of
                   the Classification Security Officers received the guidance or training.
                   We conclude that HHS has adopted policies regarding classified NSI and methods
                   to ensure that the adopted policies are effectively administered and followed.
                   However, the methods that HHS uses to ensure that Classification Security
                   Officers receive appropriate guidance and training may not be effective.
                   Therefore, we recommend OSSI, working on behalf of the Office of the
                   Secretary:
                   Clarify Who Is Responsible for Ensuring That Classification Security
                   Officers Receive Training
                   HHS’s Classified National Security Information Policy does not specify who is
                   responsible for ensuring that Classification Security Officers receive training.
                   OSSI should revise this policy to clarify who is responsible for ensuring that
                   designated Classification Security Officers receive training regarding the handling
                   and safeguarding of classified information.
                   Ensure That All Classification Security Officers Receive Guidance
                   and Training Regarding Classified NSI
                   OSSI should ensure that all Classification Security Officers are aware of their
                   responsibility to provide their divisions with guidance and oversight on the
                   handling and safeguarding of classified NSI. OSSI should also ensure that all
                   Classification Security Officers receive guidance concerning HHS’s classified
                   NSI program, including HHS’s Handbook.
                   Although some divisions may not develop or maintain classified information,
                   their Classification Security Officers have access to and may receive classified
                   information. Therefore, OSSI should ensure that all Classification Security
                   Officers receive training concerning HHS’s classified NSI program. Further,
                   OSSI should inform HHS divisions that, regardless of whether the divisions

HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   11
                   develop or maintain classified information, division heads and Classification
                   Security Officers are responsible for ensuring that divisions follow HHS policies
                   regarding classified NSI.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   OSSI concurred with both recommendations. In response to the first
                   recommendation, OSSI indicated that it is revising the HHS Handbook to ensure
                   that HHS division heads are aware of their responsibility to provide their divisions
                   with guidance and oversight on the handling and safeguarding of classified NSI.
                   OSSI also stated that it reissued the classified NSI policy and Handbook to all
                   Classification Security Officers in mid-December 2012, to ensure that they all had
                   their own copies, regardless of whether their divisions develop or maintain
                   classified information.
                   In response to the second recommendation, OSSI said that it communicated with
                   all Classification Security Officers to ensure that they are properly trained and
                   have received appropriate guidance. Further, OSSI stated that it would start
                   providing semiannual training for all Classification Security Officers in the spring
                   of 2013 to ensure that established standards are acknowledged and maintained.
                   We did not make any changes to the report based on OSSI’s comments.




HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   12
                   APPENDIX A
                   Definition of Each Classification Level
                   Information may be classified at one of three levels: “Top Secret,” “Secret,” and
                   “Confidential.” Below is a definition of each classification level.
                   Top Secret is “applied to information, the unauthorized disclosure of which
                   reasonably could be expected to cause exceptionally grave damage to the national
                   security that the original classification authority is able to identify or describe.”34
                   Secret is “applied to information, the unauthorized disclosure of which reasonably
                   could be expected to cause serious damage to the national security that the
                   original classification authority is able to identify or describe.”35
                   Confidential is “applied to information, the unauthorized disclosure of which
                   reasonably could be expected to cause damage to the national security that the
                   original classification authority is able to identify or describe.”36




                   34
                      Executive Order No. 13526 § 1.2. 

                   35
                      Ibid. 

                   36
                      Ibid. 


HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   13
                          APPENDIX 8
                          Agency Comments




     /   ........ 

 f       ._#                                              tEPAR'T'MEtolr OF HEAl."TH & HUUAN SERVICES
 ~~~----------------------Oftea~
                          -----· _   ___s_b_
                                 .___and   ~~_
                                             _ · _,_mo
                                                    __~-~-·--·-------=~~-------
                                                                                              Februel'y 22. 2012

                 To:     Daniel R. LevinsOn
                         Inspector General for EvaJuation and Inspections
                         Depattment of Health & Human Services

                 From: 	 Dr. Joy Miller   /S/
                         Deputy Assistant Sectelaty for Security
                         Office of Security and Strategic Information (OSSI)
                         Secretary's Senklr lnteillgenoe Official

                Subject: OSSI Response to Draft Final OIG Reports, dated 29 January 2013.

                References:
                        OIG Report OEI..07~12...()()400 (Draft) HHS Adopee<l, Administered, and Generalty Followed
                aassified htfonnation Policies, (OEI-07·12-00400)

                       OIG Report OE1..07-12...()()401 (Draft) Originally and DerivaliYely Classified Documents Met
                Most Federal Requirementa, (OEI-07-12...()0401)

                 1. Purpose. To~ ruponses toOIG recommendations as noted In the refefenoe reportS.

                2. Background. The Reducing Over-Ciaslification Act of 2010 mandated that the ll'l$peCtef
                Gene1111 for each te0eta1 government agency or dep81tr'nent who have ernpk)yees authorized to
                make original classlfic:lltio decisions conduct two evaluations One evaluation is intended to
                assess whefhef applicable classllcation pofldes have been adopted, erfedively administered. and
                followed: and the OCher to Identity prac:tlc:u that may e«ttribule to milclasalficatl of ~l
                These evaluatioos wil be~ by 30 September, 2013. Then. a second evaluation, to be
                ~ by 30 Sepeember, 2016 must review progress made punuant to the results of tt1e first
                evaluation. The HHS Special Security Officer (SSO) serves as lead for coordinating Department
                wide implementation of the HHS Classified National Security Information (NSI) Policy

                3. OIG Report OEI-07-12...()0400 (Draft). This OIG report addressed the first requited evaluation
                and assessed whether HHS had adOpted, effectiYely admintstered. and folloWed polloes regarding
                Classified NSI.

                        A. 	 O!G RICiO!I!!!lt!1da. Clarify who is responsl;ble for ensuring that Classification
                              Security Officers {CSO) receive ttaining.

                        B 	 OSSJ Baponu. Concur. OSSI is In the process of revising the HHS Cla$sifled
                            Natlonat Security Information Handboot<, dated 17 February 2012 to ensure
                            OPISTAFF OIV CSOs a rot aware of their responsibility to provide their dMsions with
                            guidance and oversight on the hand"ng ancl58feguardlng of classified NSI.
                            Additionally, OSSI reissued the Classified NSI Polley and Handbook to all OPISTAFF
                            OtV CSOs in mid-tlocember 2012, to ensure each had !heir own <:OPY of the
                            handbook. regardlesa of whether their divisions deve4op or maintain ctasslfied
                              nfotmation.

                        C . 	 OIG Reeommenditlon. Ens\lre that all Claslftcation Security Ofl'icers receive
                              guidance and training regarding Classified National Security Information



                                                                   1




HHS Adopted, Administered , and Generally Followed Classified Information Policies (OEI-07-12-00400)                  14
Note: The Office of Security and Strategic Information did not include any editorial or technical comments in the attachments
referenced in its response.



HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)                             15
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Pattison, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City regional
                   office, and Brian T. Whitley, Deputy Regional Inspector General.
                   Rae Hutchison served as the project leader for this study. Other Office of
                   Evaluation and Inspections staff from the Kansas City regional office who
                   conducted the study include Michael J. Brown and Jordan R. Clementi. Central
                   office staff who provided support include Althea Hosein, Debra Roush, and
                   Talisha Searcy.




HHS Adopted, Administered, and Generally Followed Classified Information Policies (OEI-07-12-00400)   16
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
